IN THE
SUPREME COURT OF THE UNITED STATES

ERIK EGBERT, Petitioner,
v.
ROBERT BOULE, Respondent.

)
)
)
)
)
)
)

No. 21-147
On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the
Ninth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the “Brief Amicus
Curiae of Immigration Reform Law Institute in Support of Petitioner” filed on behalf of
Immigration Reform Law Institute in the above-captioned matter contains 5,096 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 2, 2021.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: ljoseph@larryjoseph.com
Counsel for Amicus Curiae

